                                    October 29, 2010

The Honorable Robert Goodlatte
10 Franklin Road, S.E.
Roanoke, VA 24011-2121

Dear Congressman Goodlatte:

        Thank you for your letter, dated July 15, 2010, in which you asked that my office
investigate the modernization project of the Richard H. Poff Federal Building located in
Roanoke, VA. Your request asked my office to review how the project came to be, why
it did not follow the normal project process for federal buildings, and why it is focused on
environmentally friendly updates that should have been planned long ago. In addition,
the request cited the following specific concerns with the modernization plans: the lack
of a cost-benefit analysis; the significant disruption to the processing of veterans' claims
and benefits; plans by the Department of Veterans Affairs (VA) to relocate offices after
the project; and the failure to include security improvements to the building. We
performed a limited review to answer your questions and concerns.

        We found that the project is based on a series of studies, performed between
2000 and 2006, that assessed the conditions of the Poff Federal Building and
determined the improvements needed for its continued occupancy. The studies
addressed a variety of issues including building engineering, safety and environmental
conditions, and progressive collapse. The concerns raised in these reports led to the
2008 feasibility study that identified the major issues as: uneven solar heat gain,
violations of current building codes, and deterioration problems. According to the
General Services Administration (GSA) personnel, when funding became available from
the American Recovery and Reinvestment Act (Recovery Act) in 2009, the project was
identified as a viable candidate for a portion of the High Performance Green Building
funds. Under the Recovery Act, the normal project approval process was replaced by an
expedited authorization and funding process that included project selection and
authorization by GSA after submitting its spend plan list to the Committees on
Appropriations of both the House of Representatives and the Senate. GSA's original
Recovery Act spend plan, dated March 31, 2009, included this project.

       Regarding your concerns, we found that while the GSA did not conduct a cost-
benefit analysis prior to awarding the contracts for the modernization project, the
analyses conducted after the award indicate that renovating the Poff Federal Building is
more cost effective than constructing a new building. Both GSA and VA acknowledge
that the modernization project will cause some disruption to the processing of veterans'
claims. However, the two agencies are working together to minimize any disruptions to
operations. Further, according to VA officials, there are no plans to relocate from the
Poff Federal Building after the project is complete. Finally, while security improvements
are not part of the Recovery Act funded modernization project, mandatory security
improvements recommended in the most recent building security assessment are
planned for completion within the next three years.

The results of our review of your concerns are discussed in more detail below.

Cost-Benefit Analysis
        Although GSA conducted a cost-benefit analysis that showed that renovating the
Poff Federal Building would save over $18 million versus constructing a new building,
the analysis was not conducted until after GSA had awarded the construction contract
for the modernization. Normally, a cost-benefit analysis for a project is performed
during the feasibility study phase to assess project alternatives as part of the planning
process. Among other things, such an analysis should examine financial aspects of
each alternative, as well as their ability to meet customer agency requirements.

        However, GSA did not perform a cost-benefit analysis for the Poff Federal
Building modernization project as part of the feasibility study phase. According to
project staff, constructing a new building was not considered viable because the U.S.
District Courts are also located in the building. Moving the District Courts would require
a new courthouse that was not on the Judiciary's 5-year construction plan. As such,
GSA awarded the contract for the Poff Federal Building modernization project in
November 2009 and did not conduct a cost-benefit analysis until December 2009. The
analysis was limited to a financial analysis that showed that renovating the Poff Federal
Building would provide a cost advantage of $18,229,359 over a 30-year period when
compared to constructing a new building.

Disruption to Veterans' Claims Processing
       While both acknowledge that the modernization project will cause some
disruption to veterans' claims processing, GSA and the VA are working together to
minimize any disruptions to those operations. During the Poff Federal Building
modernization, tenants from the VA will be moved into temporary swing space. The VA
requested that the entire Regional Office be relocated during the project in order to
minimize disruptions to its operations. However, since the space to accommodate the
entire Regional Office into one location was not available, GSA arranged for the VA to
occupy space in four buildings located in the vicinity of the Poff Federal Building.

       To minimize the operational disruptions, the VA identified four Regional Office
groups that it wants to keep together within the same office space: 1) Director's Office,
Support Services Division, and the Information Security Officer; 2) Regional Loan
Center, Vocational Rehabilitation and Employment, and the Buffalo Education Service;
3) Veterans Service Center, Service Organizations, and the Mailroom; and 4) Central
File Room.
Plans for the VA Following the Modernization
       According to the VA officials with whom we spoke, the VA plans to stay in the
Poff Federal Building after modernization project is complete. The Occupancy
Agreement between the VA and GSA expires in September 2013 and the project is
scheduled to be completed around that time. However, these officials cited the fact that
the VA has been in the Poff Federal Building for over a decade and that there are no
viable alternatives.

Security Improvements
       Although security improvements planned for the modernization were not funded
as part of this project, GSA does have plans to address security issues identified in the
most recent building security assessment for the Poff Federal Building. A building study
in 2006 recommended several security improvements. Although these improvements
were included as an option in the construction contract for this modernization project,
the funding for this project was insufficient to make these improvements.

        Instead, GSA is planning to implement mandatory security countermeasures
identified in a March 2009 building security assessment conducted by the Department
of Homeland Security. GSA is in the planning stages to implement the countermeasures
to these security issues through a project that is being funded separately from, but will
be coordinated with, the current modernization project.

      I hope we have addressed your concerns. Please do not hesitate to contact me
or Dave Farley, Director, Office of Communications and Congressional Affairs, Office of
Inspector General at (202) 219-1062.


                                  Sincerely,



                                  Brian D. Miller
                                  Inspector General
